March 25, 2003

GEORGE L. LOPEZ
VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

SUBJECT:      Audit Report – Sexual Harassment Prevention Measures in the Arkansas
              and Rio Grande Districts - Southwest Area
              (Report Number LH-AR-03-009)

This report presents the results of our audit of sexual harassment prevention
measures in the Arkansas and Rio Grande Districts - Southwest Area (Project
Number 02YG010LH008). Our overall objective was to determine if the districts
had adequate policies and procedures in place to prevent sexual harassment in the
workplace, and to effectively address sexual harassment complaints to mitigate liability.
This report is based on a self-initiated review, and is the ninth in a series of ten reports
we will be issuing regarding sexual harassment prevention measures Postal Service-
wide.

We found that the Arkansas and Rio Grande Districts’ sexual harassment policies and
procedures were adequate and most employees found responsible for sexual
harassment or inappropriate actions/comments were appropriately disciplined, or
corrective action was taken. We also found that although no Postal Service national
policy existed regarding the retention time for informal complaint files, both districts
were retaining files for at least 6 years and storage was adequate. We also found,
however, that some areas needed improvement. Specifically, Rio Grande District policy
did not require that disciplined managers/supervisors be considered for exclusion from
the Pay for Performance Program. As a result, one disciplined manager/supervisor
received Pay for Performance. In addition, most of the sexual harassment complaints in
the Rio Grande District were not effectively addressed, however, they were in the
Arkansas District.

The report included three recommendations to help the Rio Grande District
improve its sexual harassment prevention program. Management agreed with
recommendations 1 and 2, and the first part of recommendation 3. The actions taken or
planned should correct some of the issues identified in the report. However,
management did not agreed with the second part of recommendation 3 to fully
document actions taken to address complaints. The Office of Inspector General (OIG)
considers that part of recommendation 3 as unresolved and will address it in a separate
capping report to the senior vice president, Human Resources. Management’s
comments and our evaluation of these comments are included in this report.

The OIG considers recommendations 1 through 3 significant and, therefore, requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, please contact Chris Nicoloff, director, Labor Management,
at (214) 775-9114, or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment

cc: Suzanne F. Medvidovich
    Murry E. Weatherall
    E. W. Waldemayer, Jr.
    Lawrence K. James
    Susan M. Duchek
Sexual Harassment Prevention Measures in the                               LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area


                                  TABLE OF CONTENTS

 Executive Summary                                                           i

 Part I

 Introduction                                                                1

     Background                                                              1
     Objective, Scope, and Methodology                                       1
     Prior Audit Coverage                                                    1

 Part II

 Audit Results                                                               2

     Policies and Procedures Adequate                                        2

     Most Employees Appropriately Disciplined or Corrective Action Taken     3
     Recommendation                                                          4
     Management’s Comments                                                   4
     Evaluation of Management’s Comments                                     5

     Managers/Supervisors Not Considered for Exclusion from Pay for
      Performance                                                            6
     Recommendation                                                          7
     Management’s Comments                                                   7
     Evaluation of Management’s Comments                                     7

     Many Complaints Not Effectively Addressed                               8
     Recommendation                                                          9
     Management’s Comments                                                   9
     Evaluation of Management’s Comments                                    11

     File Retention and Storage Adequate                                    13

    Additional Management’s Comments                                        14
    Evaluation of Management’s Comments                                     14

 Appendix A. Objective, Scope, and Methodology                              15

 Appendix B. Management’s Comments                                          17




                                        Restricted Information
Sexual Harassment Prevention Measures in the                                         LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area


                                  EXECUTIVE SUMMARY
 Introduction                  This report presents the results of our audit of sexual
                               harassment prevention measures in the Arkansas and
                               Rio Grande Districts, located in the Southwest Area. This
                               review was self-initiated to determine if the districts had
                               adequate policies and procedures in place to prevent sexual
                               harassment in the workplace, and to effectively address
                               sexual harassment complaints to mitigate liability.

 Results in Brief              The audit revealed that the Arkansas and Rio Grande
                               Districts’ sexual harassment policies and procedures were
                               adequate and most employees found responsible for sexual
                               harassment or inappropriate actions/comments were
                               appropriately disciplined, or corrective action was taken.
                               We also found that although no Postal Service national
                               policy existed regarding the retention time for informal
                               complaint files, both districts were retaining files for at least
                               6 years and storage was adequate. We also found,
                               however, that some areas needed improvement.
                               Specifically, Rio Grande District policy did not require that
                               disciplined managers/supervisors be considered for
                               exclusion from the Pay for Performance Program. As a
                               result, one supervisor received Pay for Performance. In
                               addition, while all of the sexual harassment complaints in
                               the Arkansas District were effectively addressed, most of
                               the complaints in the Rio Grande District were not.

 Summary of                    The report included three recommendations to help the
 Recommendations               Rio Grande District improve their sexual harassment
                               prevention program. We recommended management
                               instruct the Rio Grande District manager to establish
                               controls to ensure employees receive appropriate discipline
                               when found responsible for sexual harassment or
                               inappropriate actions/comments of a sexual nature. We
                               also recommended that managers/supervisors disciplined
                               for sexual harassment or inappropriate actions/comments of
                               a sexual nature, are considered for exclusion from all pay
                               for performance or other bonus programs. Finally, we
                               recommended that controls be established to ensure that
                               managers and supervisors effectively address all sexual
                               harassment complaints and inappropriate actions/comments
                               of a sexual nature and fully document detailed evidence of
                               the actions taken to address complaints.




                                                   i
                                        Restricted Information
Sexual Harassment Prevention Measures in the                                      LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area




 Summary of                    Management agreed with recommendations 1, 2, and the
 Management’s                  first part of recommendation 3. However, management
 Comments                      disagreed with the second part of recommendation 3 to fully
                               document actions taken to address complaints. They stated
                               that Postal Service policy allowed some matters to be
                               resolved simply and directly between the parties without a
                               formal written record. Management stated to require
                               documentation on every minor incident of inappropriate
                               workplace behavior would potentially undermine the ability
                               of supervisors to quickly and effectively resolve minor
                               workplace issues. Management also stated that although
                               all matters would be fully investigated, not all complaints
                               would result in a full written record.

                               Management also disagreed with the finding that most
                               complaints were not effectively addressed in the Rio Grande
                               District. Management stated that an effective investigation
                               is one that provides sufficient and timely information thereby
                               allowing management to take appropriate remedial action or
                               to close the matter properly. They stated that although no
                               “formal” investigation was conducted on eight of the
                               complaints, management did conduct an inquiry.
                               Management also stated a complaint handled effectively is
                               one where the Postal Service incurs no liability or where the
                               complainant is satisfied with the ultimate result of
                               management’s investigation. Additionally, management
                               stated the time required to investigate complaints varied,
                               depending upon circumstances of the allegation and the
                               passage of a few days or weeks to conduct an investigation
                               should not lead to the conclusion that complaints were not
                               effectively addressed.

                               Finally, management stated the report simplified or
                               broadened the definition of sexual harassment.
                               Management’s comments, in their entirety, are included in
                               Appendix B of this report.

 Overall Evaluation of         Management’s comments are responsive to
 Management’s                  recommendation 1, 2, and the first part of recommendation
 Comments                      3 and the actions taken or planned should correct some of
                               the issues identified in the report. However, management’s
                               comments are not responsive and did not meet the intent of
                               the second part of recommendation 3 to fully document
                               actions taken to address complaints. We do not agree that
                               documenting actions would potentially undermine the ability

                                                   ii
                                        Restricted Information
Sexual Harassment Prevention Measures in the                                                            LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area



                                    of supervisors to quickly resolve minor workplace issues.
                                    Documenting action management took after they address
                                    the complaint has no impact on how quickly a matter can be
                                    resolved. It does, however, play an important role in
                                    determining credibility and mitigating liability. Postal Service
                                    policy is clear that serious complaints must be documented,
                                    and further provides that “When in doubt, document.” We
                                    believe the policy does not limit management from
                                    documenting all actions, it simply establishes a floor, not a
                                    ceiling for addressing complaints.

                                    We also believe the audit results support the assertion that
                                    most complaints were not effectively addressed.
                                    Management did not provide documented evidence that
                                    showed how the complaints were effectively addressed.
                                    We believe the measurements contained in Equal
                                    Employment Opportunity Commission guidance relating to
                                    whether management’s response to a complaint was
                                    prompt, thorough, impartial, and documented were the
                                    appropriate standards to use when determining how
                                    effectively a complaint was addressed and resolved.

                                    Finally, we do not agree that the report simplified or
                                    broadened the definition of sexual harassment. Some of
                                    the complaint files we reviewed may not have risen to the
                                    legal definition of sexual harassment; however, they did
                                    meet the Postal Service’s criteria for when such complaints
                                    should be addressed, and they fell within the scope of our
                                    review.

                                    The OIG considers recommendation 3 as unresolved and
                                    will address it in a separate capping report.1




1
 We will issue a capping report on the audit results in the nine areas we visited, including the Southwest Area, where
recommendations regarding national policy will be made to the senior vice president, Human Resources.


                                                         iii
                                               Restricted Information
Sexual Harassment Prevention Measures in the                                                          LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area


                                              INTRODUCTION
    Background                       Sexual harassment is defined by law as unwelcome sexual
                                     advances, requests for sexual favors, and other verbal or
                                     physical conduct of a sexual nature that becomes a term or
                                     condition of employment. According to a Postal Service
                                     Law Department report, in fiscal years (FY) 2000 and 2001,
                                     the Postal Service paid approximately $284,4162 for sexual
                                     harassment judgments and settlements in the Southwest
                                     Area.

    Objective, Scope, and            Our overall objective was to determine if the districts had
    Methodology                      adequate policies and procedures in place to prevent sexual
                                     harassment in the workplace, and to effectively address
                                     sexual harassment complaints to mitigate liability. Our
                                     objective, scope, and methodology are discussed in
                                     Appendix A.

    Prior Audit Coverage             We did not identify any prior audits or reviews related to the
                                     objective of this audit in these two districts.




2
    This amount represents ten complaints. None of these complaints were within the scope of our review.

                                                          1
                                               Restricted Information
Sexual Harassment Prevention Measures in the                                    LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area


                                       AUDIT RESULTS
 Policies and        We found that the Arkansas and Rio Grande Districts had
 Procedures Adequate adequate policies and procedures that should enable district
                     management to identify and prevent sexual harassment or
                     inappropriate actions/comments, and provide management
                     with guidance to respond effectively to complaints, thus
                     mitigating liability and costs.

                              We also found that the districts:

                                  •   Established as district policies, Postal Service
                                      Publication 552, Manager’s Guide to Understanding
                                      Sexual Harassment, and Publication 553, Employee’s
                                      Guide to Understanding Sexual Harassment.

                                  •   Established sexual harassment fact-finding teams at
                                      the district level to investigate all complaints.

                                  •   Provided service talks for employees on sexual
                                      harassment.




                                                   2
                                        Restricted Information
Sexual Harassment Prevention Measures in the                                                               LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area




    Most Employees                    We found that most employees responsible for sexual
    Appropriately                     harassment or inappropriate actions/comments were
    Disciplined or                    appropriately disciplined, or corrective action was taken. In
    Corrective Action                 one case, however, discipline was not severe enough given
    Taken                             the circumstances of the case.

                                      Equal Employment Opportunity Commission 1990 and
                                      1999 guidelines recommended agencies take immediate
                                      and appropriate corrective action, including discipline, when
                                      sexual harassment occurred. Postal Service policy stated
                                      employees engaged in sexual harassment would be subject
                                      to disciplinary action, up to and including removal. The
                                      policy also stated that disciplinary action might result even if
                                      the conduct was not sexual harassment as defined by the
                                      law, but was inappropriate and of a sexual nature.

                                      Our review of formal and informal3 complaints in the
                                      Arkansas and Rio Grande Districts showed that:

                                          •    Of the six formal and informal sexual harassment
                                               complaints filed in the Arkansas District, sexual
                                               harassment or inappropriate actions/comments were
                                               not substantiated in one, and substantiated in five.

                                               – In the five substantiated complaints,
                                                 five employees were involved and all were
                                                 appropriately disciplined or corrective action was
                                                 taken.

                                          •    Of the 20 formal sexual harassment complaints filed
                                               in the Rio Grande District, sexual harassment or
                                               inappropriate actions/comments were not
                                               substantiated in 4, and substantiated in 8. For the
                                               remaining eight complaints, management did not
                                               conduct an inquiry or investigation to determine
                                               whether sexual harassment or inappropriate
                                               actions/comments had occurred, and thus no
                                               discipline or corrective action was considered or
                                               taken.




3
    The term “informal” complaint refers to those not filed in the Equal Employment Opportunity process.

                                                            3
                                                 Restricted Information
Sexual Harassment Prevention Measures in the                                                        LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area



                                           – In the eight substantiated complaints,
                                             seven4 employees were involved. Six were
                                             appropriately disciplined and one was not.

                                           – The harasser was the complainant’s supervisor
                                             and the two were not separated after the
                                             complaint was made. Instead, the supervisor was
                                             instructed to refrain from contact with the
                                             complainant. However, he violated the instruction
                                             and had repeated contact with the complainant
                                             which resulted in a verbal altercation. The
                                             supervisor placed the complainant off the clock
                                             and instructed her not to return to work the
                                             following day.

                                           – This supervisor had a previous history of
                                             harassment and district officials stated they
                                             recommended the postmaster remove the
                                             supervisor. However, the postmaster, who was
                                             the deciding official, determined the harasser had
                                             potential for rehabilitation and issued him a letter
                                             of warning in lieu of a 14-day suspension.

                                  We believe the supervisor should have been removed from
                                  employment given his supervisory position, his disregard of
                                  instructions given, and his subsequent retaliation against the
                                  complainant, leaving the Postal Service vulnerable to
                                  liability.

 Recommendation                   We recommend the vice president, Southwest Area
                                  Operations, instruct the Rio Grande District manager to:

                                      1. Establish controls to ensure managers/supervisors
                                         receive the appropriate discipline for sexual
                                         harassment or inappropriate actions/comments of a
                                         sexual nature.

 Management’s                     Management agreed with the recommendation and stated
 Comments                         the district already had controls in place to ensure
                                  managers/supervisors receive the appropriate discipline.
                                  They stated the Human Resources manager, for instance,
                                  after sending a recommendation for discipline to a

4
  In one of the eight complaints where sexual harassment or inappropriate actions/comments were substantiated, the
alleged harasser was a customer and not a Postal Service employee, thus, no disciplinary action could have been
considered.

                                                        4
                                             Restricted Information
Sexual Harassment Prevention Measures in the                                      LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area


                              supervisor/postmaster, monitors the recommendation to
                              determine whether the deciding official followed it.
                              Management also stated, however, this follow-up process–
                              which complies with Merit Systems Protection Board
                              regulations–will not replace the deciding official’s judgment
                              once he or she has considered all appropriate factors.
                              Management also stated it was worth noting that the Postal
                              Service incurred no liability in this complaint.

 Evaluation of                Management’s actions taken or planned are responsive to
 Management’s                 the recommendation and should correct the issues identified
 Comments                     in this report.




                                                   5
                                        Restricted Information
Sexual Harassment Prevention Measures in the                                                     LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area




 Managers/                       We found the Rio Grande District policy did not require that
 Supervisors Not                 disciplined managers/supervisors be considered for
 Considered for                  exclusion from the Pay for Performance Program when
 Exclusion From Pay              found responsible for sexual harassment or inappropriate
 for Performance                 actions/comments. As a result, one supervisor received Pay
                                 for Performance.5

                                 Equal Employment Opportunity Commission guidelines
                                 included a reduction in wages as an effective corrective
                                 measure to stop harassment and ensure it does not reoccur.
                                 Postal Service policy stated an employee whose conduct
                                 was clearly unacceptable may be excluded from the Pay for
                                 Performance Program. The Postal Service described
                                 unacceptable behavior as “notoriously disgraceful or
                                 immoral conduct, or other conduct prejudicial to the Postal
                                 Service.”

                                 We found:

                                     •    None of the five employees in the Arkansas District
                                          responsible for sexual harassment or inappropriate
                                          actions/comments were eligible for the Pay for
                                          Performance Program.

                                     •    Seven employees in the Rio Grande District were
                                          found responsible for sexual harassment or
                                          inappropriate actions/comments. One was a
                                          manager/supervisor who was eligible for the Pay for
                                          Performance Program and was not considered for
                                          exclusion. The employee received $1,719 in Pay for
                                          Performance in FY 2001. This is the same supervisor
                                          that we found had not received the appropriate
                                          discipline based on his behavior.

                                          – District management stated they only exclude
                                            employees who: (1) received an unacceptable
                                            performance evaluation, (2) were downgraded
                                            from a management/supervisory position to a craft
                                            position, or (3) were terminated.




5
  The Pay for Performance Program, formerly referred to as the Economic Value Added Program, was an incentive
award program for nonbargaining employees. The amount of money received by each employee was based on a
group achievement of performance targets and financial measurements.

                                                       6
                                            Restricted Information
Sexual Harassment Prevention Measures in the                                    LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area



                              We believe sexual harassment meets the Postal Service’s
                              definition of unacceptable behavior or immoral conduct and
                              all managers/supervisors found responsible for sexual
                              harassment or inappropriate actions/comments of a sexual
                              nature should be considered for exclusion from the Pay for
                              Performance Program. Such exclusion could be an effective
                              corrective measure to stop harassment and ensure it does
                              not reoccur.

 Recommendation               We recommend the vice president, Southwest Area
                              Operations, instruct the Rio Grande District manager to:

                                  2. Establish controls to ensure managers/supervisors
                                     disciplined for sexual harassment or inappropriate
                                     actions/comments of a sexual nature, are considered
                                     for exclusion from all pay for performance or other
                                     bonus programs.

 Management’s                 Management agreed with the recommendation. They stated
 Comments                     the Pay for Performance Program was no longer in
                              existence, however, they would ensure that disciplined
                              employees were considered for exclusion from any future
                              pay for performance programs. Regarding the finding,
                              management acknowledged the Rio Grande District’s policy
                              did not automatically require a supervisor’s exclusion from
                              the Pay for Performance Program.

 Evaluation of                Management’s actions taken or planned are responsive to
 Management’s                 the recommendation and should correct the issues identified
 Comments                     in this report.




                                                   7
                                        Restricted Information
Sexual Harassment Prevention Measures in the                                                          LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area




    Many Complaints Not            Our audit disclosed that all six complaints in the Arkansas
    Effectively                    District were effectively addressed. However, 13 of
    Addressed                      20 complaints were not effectively addressed in the
                                   Rio Grande District. Equal Employment Opportunity
                                   Commission guidelines defined an “effective” investigation
                                   as a prompt, thorough, and impartial review with
                                   documented evidence. Postal Service policy required
                                   managers to conduct sexual harassment inquiries promptly
                                   and investigate all complaints, and document “serious”
                                   complaints with detailed evidence.6

                                   We found that:

                                       •    Postal Service national policy did not require that “all”
                                            complaints be documented—only those that
                                            managers believed were “serious.”

                                       •    Of the 20 formal and informal complaints filed in the
                                            Rio Grande District, 7 were effectively addressed and
                                            13 were not.

                                            – For the 13 not effectively addressed, 4 were not
                                              prompt, 1 was not thorough, and 8 were not
                                              investigated.

                                            – District management provided numerous reasons
                                              why complaints were not effectively addressed.
                                              For example, for the complaints that were not
                                              investigated, management said after reviewing the
                                              Equal Employment Opportunity complaint form,
                                              they decided sexual harassment had not
                                              occurred.

                                   Complaints not effectively addressed could result in liability
                                   because the Postal Service cannot demonstrate it exercised
                                   reasonable care to prevent and promptly correct harassing
                                   behavior. We believe the lack of a Postal Service policy
                                   requiring documentation of all complaints may have been a
                                   factor. We will address this issue in a separate report.



6
  Publication 552 was revised effective September 2001, and replaced the term “serious” with the statement “some
complaints can be resolved simply and directly between the parties without the need for a formal written record.” The
revised policy also provided that managers/supervisors needed to decide early in the process whether formal
documentation was warranted, and that a good rule of thumb was when in doubt, document.

                                                         8
                                              Restricted Information
Sexual Harassment Prevention Measures in the                                     LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area




 Recommendation               We recommend the vice president, Southwest Area
                              Operations, instruct the Rio Grande District manager to:

                                  3. Establish controls to ensure managers and
                                     supervisors effectively address all sexual harassment
                                     complaints and inappropriate actions/comments of a
                                     sexual nature and fully document detailed evidence of
                                     the actions taken to address complaints.

 Management’s                 Management agreed with the part of the recommendation
 Comments                     that all sexual harassment complaints be promptly,
                              thoroughly and impartially investigated and stated they had
                              already established protocols.

                              Management also stated they were firmly committed to
                              providing an effective mechanism to combat sexual
                              harassment and to provide a work environment free of
                              sexual harassment. In addition, management stated the Rio
                              Grande District’s management had enhanced procedures in
                              the last year to ensure that all complaints continued to be
                              promptly investigated and that any actions to address the
                              harassment or inappropriate conduct would be documented
                              in accordance with Postal Service policy.

                              Management disagreed with the second part of the
                              recommendation to fully document detailed evidence of the
                              actions taken to address complaints. They stated that
                              Postal Service policy allowed some matters to be resolved
                              simply and directly between the parties without a formal
                              written record. They said this allowed managers maximum
                              flexibility and speed to deal with those minor, one-time
                              events such as an off-color joke or careless remark.
                              Management stated to require documentation on every
                              minor incident of inappropriate workplace behavior would
                              potentially undermine the ability of supervisors to quickly
                              and effectively resolve minor workplace issues. Additionally,
                              they stated when frivolous and baseless charges of
                              harassment are levied; managers need not create a written
                              record on the unjustly accused employee. Management
                              stated that although all matters would be fully investigated,
                              not all complaints would result in a full written record with
                              detailed evidence.

                              Management also disagreed with the finding that many
                              complaints in the Rio Grande District were not effectively

                                                   9
                                        Restricted Information
Sexual Harassment Prevention Measures in the                                    LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area


                              addressed. They stated that an effective investigation is one
                              that provides sufficient and timely information thereby
                              allowing management to take appropriate remedial action or
                              to close the matter properly. Management stated a
                              complaint handled effectively is also one where the Postal
                              Service incurs no liability or where the complainant is
                              satisfied with the ultimate result of management’s
                              investigation. They also stated the report did not mention
                              that the Postal Service did not incur liability in any of the
                              complaints classified as not effectively addressed, and that
                              the complainants did not raise additional issues after the
                              matters were closed.

                              Management also stated that while it was true the
                              district had not conducted ‘formal” investigations for the
                              eight complaints identified, an inquiry was conducted in each
                              of the complaints. Management stated, in some complaints
                              remedial actions were not taken because it was determined
                              the allegations did not fall within the definition of sexual
                              harassment. They also stated in one complaint where it
                              was alleged the supervisor yelled at the complainant, the
                              supervisor immediately apologized to the complainant.
                              Management stated this situation did not fall within the
                              definition of sexual harassment as stated in the law,
                              regulations, or Postal Service policy. Management also said
                              one complainant alleged two incidents of sexual harassment
                              and management reviewed both and found the allegations
                              unsubstantiated. Management agreed, however, in this
                              case management inquiries were not properly documented.
                              Management also stated, in two other matters, the
                              complainants met either with the supervisor or the
                              counselor/investigator and withdrew their complaints after
                              the meetings.

                              Management also stated the report failed to articulate what
                              standards or criteria were used to reach the conclusion that
                              the complaints were not investigated promptly.
                              Management said for the four complaints found to be not
                              promptly addressed, the time required to investigate
                              complaints varied, depending upon circumstances of the
                              allegation. Management disagreed that the passage of a
                              few days or weeks to conduct an investigation should lead to
                              the conclusion that complaints were not effectively
                              addressed.




                                                  10
                                        Restricted Information
Sexual Harassment Prevention Measures in the                                      LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area




 Evaluation of                Management’s actions taken or planned are responsive to
 Management’s                 the first part of the recommendation and should correct the
 Comments                     issues identified in the report. Management’s comments are
                              not responsive to the second part of the recommendation to
                              fully document actions taken to address complaints. We do
                              not agree with management that documenting actions would
                              potentially undermine the ability of supervisors to quickly
                              resolve minor workplace issues. Documenting action
                              management took after they address the complaint has no
                              impact on how quickly a matter can be resolved. It does,
                              however, play an important role in determining credibility
                              and mitigating liability. Specifically, it provides a record of
                              the action taken to address and resolve sexual harassment
                              complaints. Postal Service policy is clear that serious
                              complaints must be documented, and further provides that
                              “When in doubt, document.” We believe the policy does not
                              limit management from documenting all actions, it simply
                              establishes a floor, not a ceiling for addressing complaints.

                              We also believe the audit results support the assertion that
                              most complaints in the Rio Grande District were not
                              effectively addressed. The measurements we used to
                              determine if a complaint was effectively addressed were
                              contained in Equal Employment Opportunity Commission
                              guidance. These measurements were related to whether or
                              not management’s response to the complaint was prompt,
                              thorough, impartial, and documented. We believe these
                              measurements are the appropriate standards to use to
                              ensure the Postal Service does not incur future liability and
                              that the work environment is free of sexual harassment or
                              inappropriate actions/comments that could be offensive to
                              other employees. Management’s claim that the report did
                              not mention that the Postal Service did not incur liability in
                              any of the complaints classified as not effectively addressed,
                              is inaccurate. The report clearly states that the complaints
                              we reviewed were not included in the settlement figure for
                              FYs 2000 and 2001. We cannot comment whether or not
                              the complainants in the cases we reviewed raised issues
                              after their initial complaints were resolved as we did not
                              include that as a measurement of effectiveness.
                              Additionally, we believe that when the Postal Service incurs
                              no liability in some cases, it could simply mean the victim did
                              not pursue their claim.




                                                  11
                                        Restricted Information
Sexual Harassment Prevention Measures in the                                     LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area



                              Regarding management’s claim that informal inquiries were
                              conducted for the eight complaints we said no investigations
                              were conducted, no evidence was provided to us in the
                              form of documentation to support inquiries had occurred.
                              Had the complainants in these cases pursued their claims
                              through the Equal Employment Opportunity process, the
                              Postal Service may not have had the information needed to
                              show proper action had been taken.

                              We do not agree that some complaints did not fall within the
                              definition of sexual harassment. As stated in the report, the
                              complaint files we reviewed were obtained from the Postal
                              Service Equal Employment Opportunity case file database
                              and district management, and were classified as sexual
                              harassment by those sources. Our intent was to determine
                              how management addressed an allegation of sexual
                              harassment at the time it was received, regardless of what
                              was determined after the investigation. Also stated in the
                              report is our inclusion of complaints defined by Postal
                              Service as inappropriate actions/comments of a sexual
                              nature.

                              Finally, we do not agree that complaints in the Rio Grande
                              District addressed from 11 days to 1 year should be
                              considered prompt, and that the passage of a few days or
                              weeks to conduct an investigation should not lead to the
                              conclusion that complaints were not effectively addressed.
                              We determined that complaints not addressed within
                              48 hours would not be considered prompt. This standard
                              was based on Equal Employment Opportunity Commission
                              and Postal Service guidelines, the definitions of “prompt”
                              and “immediate” (used in guidelines and policy), and
                              discussions with Postal Service Headquarters officials. In
                              addition, the standard was discussed with, and agreed to, by
                              headquarters officials prior to audit work. One vice
                              president told us he expected his managers or supervisors
                              to respond to a complaint within 24 hours. Additionally, we
                              did not make our determination of promptness based on
                              how long it took to complete the inquiry or investigation, but
                              rather how long it took management to respond when they
                              became aware of the allegation.

                              We view the disagreement on this recommendation as
                              unresolved and it will be addressed in a separate report.



                                                  12
                                        Restricted Information
Sexual Harassment Prevention Measures in the                                          LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area




 File Retention and           Our audit found there was no Postal Service policy
 Storage Adequate             regarding the retention time for informal complaint files.
                              However, both districts retained informal complaint files for
                              at least 6 years and storage of files was also adequate.

                              Equal Employment Opportunity Commission guidance
                              stated formal sexual harassment complaint files should be
                              retained for at least 4 years after resolution of the complaint.
                              Postal Service policy stated once an inquiry/investigation
                              was conducted, files should be forwarded for storage, to the
                              district Human Resources manager. According to a
                              headquarters senior Postal Service manager, the intent of
                              this policy was to centrally locate the files with the Human
                              Resources manager.

                              Retaining and storing informal complaint files in a central
                              location ensures file availability if needed to mitigate liability.
                              We will address the need for a national retention policy in a
                              separate report.




                                                  13
                                        Restricted Information
Sexual Harassment Prevention Measures in the                                        LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area


 Additional                   Management stated the report simplified or broadened the
 Management’s                 definition of sexual harassment, which seemed to result in
 Comments                     the inclusion of complaints that did not fall within the precise
                              legal definition of sexual harassment.

 Evaluation of                We do not agree with management that the report
 Management’s                 broadened the definition of sexual harassment. Some of the
 Comments                     complaint files reviewed may not have risen to the legal
                              definition of sexual harassment; however, they did meet the
                              Postal Service’s criteria for when such complaints should be
                              addressed. In addition, they fell within our scope and audit
                              objectives that included coverage of the Postal Service
                              policy regarding inappropriate actions/comments of a sexual
                              nature. Specifically, that policy states “that even if a certain
                              behavior does not seem to be “sexual harassment” as
                              defined by law, if it is inappropriate, stop it!”




                                                  14
                                        Restricted Information
Sexual Harassment Prevention Measures in the                                                         LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area


          APPENDIX A. OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective was to determine if the Arkansas and Rio Grande Districts, in the
Southwest Area, implemented adequate policies and procedures to prevent sexual
harassment7 in the workplace and to effectively address sexual harassment complaints
to mitigate liability. Our district selections were based on interviews with the senior vice
president, Human Resources; vice president, Diversity Development; and the
Southwest Area vice president. We also considered the number of closed formal sexual
harassment complaints in each of the nine Southwest Area districts.

To accomplish our objective, we reviewed applicable laws, policies, procedures, and
other documents including Equal Employment Opportunity Commission guidelines,
Postal Service national policies, the Southwest Area, and the Arkansas and Rio Grande
District policies for preventing sexual harassment in the workplace. We also reviewed
Postal Service national policy regarding the Pay for Performance Program. In addition,
we reviewed previously issued Office of Inspector General reports related to sexual
harassment issues. Further, we interviewed Postal Service Headquarters, Southwest
Area, and Arkansas and Rio Grande District officials.

To determine if adequate policies and procedures were in place to prevent sexual
harassment from occurring in the workplace, we identified Equal Employment
Opportunity Commission key recommendations to agencies regarding policies and
procedures that should be in place to prevent sexual harassment and reduce the risk of
agency liability. We then reviewed the Postal Service national, Southwest Area, and
Arkansas and Rio Grande Districts’ policies and procedures to determine if the
recommendations were included.

To determine whether district managers effectively addressed informal sexual
harassment complaints to mitigate liability, we analyzed the documentation contained in
formal and informal complaint files that were filed and closed8 in FYs 2000 and 2001,9
for the two districts we selected. We recorded information related to promptness,
thoroughness, impartiality, and the level of documentation. These fiscal years were
chosen because they were the most recent and complete fiscal years at the time of our
fieldwork. The number of formal and informal closed complaints was obtained from the
Postal Service Equal Employment Opportunity case file database and district
management, respectively. We then excluded those complaints where the employees
filed their complaints directly with the Equal Employment Opportunity office and
requested confidentiality. These were excluded because honoring the request for
confidentiality precluded the Equal Employment Opportunity office from notifying district

7
  For the purpose of this report, we used the legal definition of sexual harassment defined, in part, in 29 C.F.R.
§ 1604.11(a), as unwelcome sexual conduct that is a term or a condition of employment. In addition, we included the
Postal Service policy regarding inappropriate actions/comments of a sexual nature when reviewing sexual
harassment complaint files.
8
  Sexual harassment complaints may be considered closed for a number of reasons including: (1) the
inquiry/investigation was completed, (2) a settlement had been reached, (3) the complaint was withdrawn, or
(4) discipline or corrective action was taken.
9
  We used the Postal Service fiscal years that started September 11, 1999, and ended September 7, 2001.

                                                       15
                                             Restricted Information
Sexual Harassment Prevention Measures in the                                                       LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area


management that a complaint had been made. This in turn precluded management
from conducting an investigation. We determined there were 26 closed complaint files
as follows:

                                                        Complaints               Total Complaints
                         District
                                                     Formal   Informal              Per District
          Arkansas                                      2         4                      6
          Rio Grande                                   13         7                     20
            Total                                      15        11                     26

We also determined if the retention and storage of informal files were adequate using
Postal Service national, area, and district policies as well as Equal Employment
Opportunity Commission guidelines.

In addition, we determined whether employees found responsible for sexual harassment
received appropriate discipline using Equal Employment Opportunity Commission
guidelines, Postal Service policies and procedures, and some elements of the Douglas
Factors.10 We included in this determination whether or not managers or supervisors
found responsible for sexual harassment or inappropriate actions/comments were
considered for exclusion from the Pay for Performance Program.

This audit was conducted from February 2002 through March 2003 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as were considered necessary under the circumstances. We discussed our
conclusions and observations with appropriate management officials and included their
comments, where appropriate.




10
   The Douglas Factors were developed as a result of case law (Douglas v. the Veterans’ Administration) where the
Merit Systems Protection Board ruled that management must document certain factors to be considered in making a
determination of appropriate disciplinary action.

                                                       16
                                             Restricted Information
Sexual Harassment Prevention Measures in the                     LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area


                  APPENDIX B. MANAGEMENT’S COMMENTS




                                                  17
                                        Restricted Information
Sexual Harassment Prevention Measures in the                     LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area




                                                  18
                                        Restricted Information
Sexual Harassment Prevention Measures in the                     LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area




                                                  19
                                        Restricted Information
Sexual Harassment Prevention Measures in the                     LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area




                                                  20
                                        Restricted Information
Sexual Harassment Prevention Measures in the                     LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area




                                                  21
                                        Restricted Information
Sexual Harassment Prevention Measures in the                     LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area




                                                  22
                                        Restricted Information
Sexual Harassment Prevention Measures in the                     LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area




                                                  23
                                        Restricted Information
Sexual Harassment Prevention Measures in the                     LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area




                                                  24
                                        Restricted Information
Sexual Harassment Prevention Measures in the                     LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area




                                                  25
                                        Restricted Information
Sexual Harassment Prevention Measures in the                     LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area




                                                  26
                                        Restricted Information
Sexual Harassment Prevention Measures in the                     LH-AR-03-009
 Arkansas and Rio Grande Districts – Southwest Area




                                                  27
                                        Restricted Information
